         INSPECtOR GENERAL



                                                                              IG-U-012



          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, D.C. 20436

March 31,1997

MEMORANDUM

TO:           Director, Office of Industries
              Director, Office of Information Systems

FROM:         Inspector   Gener~_L~"~
SUBJECT:      Inspection Report No. 03-97: Evaluation of the Internet as a Means of Public
              Notice

We initiated this inspection in December 1996 to determine whether the current policies and
practices for use of the ITC Web site adequately meet Commission needs as a means of public
notice. Our inspection focused on Section 332 investigations, which we thought would have the
broadest customer interest. The ITC Web site was established on the Internet in 1994, and has
thereafter been continually improved upon and expanded to reflect the needs of Commission
customers. The rapid changes occurring in electronic communications and the Internet create a
dynamic environment that will need to be periodically revisited to evaluate the impact on
Commission activities.

Overall, we found that the ITC Web site has enhanced information dissemination, and
contributed to a reduction in the distribution of public notices and hard copies of reports.
Multiple offices cooperated on the development and implementation of the site; this experience
now needs to be used to develop Commission policy and be incorporated in appropriate office
policy. Further, the site has the potential, which is not fully utilized, to be a valuable
management tool in measuring the accomplishment of the Commission's strategic goals.

We interviewed officials from the Offices of Operations, Industries, Tariff Affairs and Trade
Agreements, and External Relations for the purpose of gathering information on site use and
policies. We interviewed officials from the Office oflnfonnation Services (OIS) for technical
information and assistance in utilizing logs maintained on the Internet server. We also
interviewed officials from the Office of the Secretary, and obtained information from the
database of report recipients which we used to select individuals for a phone survey. (See
Attachment 1 for details of the survey.) We selected six section 332 reports issued in July
through December 1996 (Publication Nos. 2975, 2987, 2992, 2995, 3000, and 3007) for detailed
review. We examined Commission directives, policies and procedures, and procurement
documents pertinent to the site. All work was done at the Commission's offices at 500 E Street,
SW, Washington DC.


Background

In June 1994, the Commission established an ITC Web site with the purpose of providing
worldwide access, around the clock, to parties interested in Commission actions, activities, and
reports. The site contains general information about the Commission and the Commissioners,
recent petitions and complaints filed, the monthly calendar, news releases, Federal Register
notices,Tariff Affairs and related matters, reports and publications, and a bibliography of trade-
related law journal articles. Confidential material and Section 337 reports are not on the site.

An Electronic Reports Distribution Committee was established in June 1994 to, among other
things, determine agency needs/requirements for increased public access to information through
electronic report distribution, and identify and evaluate alternative systems available for such
distribution. In August 1995, the Committee Chairman (the Director of Industries) sent a report
to the Chairman of the Information Resources Management (IRM) Steering Committee (the
Director of Operations) on the Pilot Internet Server. Subsequently, the Electronic Reports
Distribution Committee was disbanded, and the Internet Advisory Board (lAB) was formed to
provide advice on the issues related to the Internet distribution system. The lAB is co-chaired by
an International Trade Analyst from the Office of Industries, and the Public Affairs Officer from
the Office of External Relations.


Public notice requirements

The ITC Web site has been used to enhance public notice of specific events in investigations and
supports Commission efforts to reduce the number of notices mailed. For section 332
investigations, the site has not been used to reduce the Federal Register announcements, and
could not do so unless the Commission rules are amended.

Public notices are published in the Federal Register and a copy is posted at the Office of the
Secretary. In addition, each notice is made available on the ITC Web site. News releases, which
may be issued concurrently with a public notice and are sent to the media (approximately 90
entities as of March 1997), now state that the notice is available on the ITC Web site. The
nineteen customers we surveyed who had used the I'I'C Web site found it to be useful in keeping
up to date on Commission notices.

As of May 31, 1996, the Commission virtually discontinued mailing notices to individuals when
a Fax-on-Demand system was officially established. The individuals on the public notice
mailing list were notified that they could obtain copies of public notices (and other documents)


                                                 2
immediately by using the Fax-on-Demand System. The mailing list, which had been reduced to
325 entries after a validation, was subsequently reduced to four recipients in July 1996. The ITC
Web site contributed to this reduction because, in order to be on the mailing list, the recipients
had to certify that they did not have Fax capability or Internet access.

The ITC Web site cannot currently be used as a replacement for public notices in 332
investigations. Commission rules provide for public notice of 332 investigations at certain times,
such as the institution of investigations and public hearings, through announcements in the
Federal Register. See 19 CFR"§ 201.10. Unless the rules are amended, the Commission must
continue to publish notices in the Federal Re2ister.


Report distribution

The ITC Web site has been used to enhance the availability of final Commission reports. The
ITC Web site has not been directly used to reduce the number of reports mailed, and based on
our survey of section 332 report recipients, could not be used for this purpose. Availability of
Commission reports on the site gives customers more information to use in deciding whether to
request a copy of a report, and thereby contributes to focusing report distribution to those with a
specific interest and reducing the overall number of report copies mailed.

Most final reports issued since June 1994 are available on the ITC Web site. An executive
summary of most reports is directly accessible on the site. The full text of the final report is
available through downloading the appropriate file.

For section 332 investigations, all public reports published since June 1994 are on the site in a
searchable archive except for the Automobile Industry Monthly Reports, which were not made
available due to low demand and knowledge that the reports would be discontinued in March
1996. A few earlier section 332 reports that are still in demand are also available on the ITC Web
site; at the present time, there are no plans to enter the early 332 reports with low demand.

The ITC Web site complements changes in the distribution of 332 investigation reports made in
recent years in an effort to balance mailing expenses with customer service. Since November
1994, the Secretary has requested that the program office consider mailing a news release, rather
than the report, to the 332 reports mailing list, which usually has over 450 entries. This was done
for the three of the six reports that we reviewed.

The news release refers to the various means of obtaining copies of reports, including electronic
versions available on the ITC Web site, and that hard copies can be obtained through phone, fax,
or write in requests to the Publications Branch. To the extent that individuals receiving the news
release use the ITC Web site to read the executive summary, and decide they do not need to
request a copy of the report, or download the report, the site contributes to reducing the number
of reports mailed.


                                                 3
Based on a survey of25 individuals who had requested copies of the 332 reports that we
reviewed, we believe that more stringent requirements to use the site to access reports could
damage rather than improve customer relations. All of the customers commented that they still
prefer, or have a requirement for, hard copies of reports. Neither the nineteen customers who had
used the Web site, nor the six nonusers, would substitute electronic files for traditional hard
copies.

An almost universal comment was that downloading files was difficult, time consuming and
often unsuccessful. The Director of Industries commented that the Commission is trying to
balance providing convenient access to users, while not imposing a major burden on staff. The
ITC Web site provides a contact point for users who are having difficulty with downloading.
The Director said that staff are generally successful in talking people through the process
depending on their skills and software. He also commented that downloading files is new to
many Internet users and thus there is a learning curve involved. The Director of Information
Services commented that the downloading problems bear more investigation. We believe that
anything the Commission can do to make the process easier would be beneficial, but comments
on downloading problems can be expected until users have more Internet experience.


Commission Policy on Use of the Internet

Multiple offices cooperated on the development and implementation of the ITC Web site, and the
lAB has issued technical guidance on posting material on the site. However, a Commission
policy needs to be developed on use of the Internet, and office guidance needs to be updated to
reflect the lAB guidance on 332 investigations.

The lAB issued a document titled "Commission's Internet Posting Guidelines," on March 7,
1997. The document provides technical guidance on posting electronic files on the ITC Web site,
but does not establish official Commission policy on use of the Internet.

In the August 1995 Report on the Commission's Pilot Internet Server, the Committee
recommended that the Commission adopt the Internet as the principal means of electronic
distribution. The Commission has not yet officially adopted this policy. If that is done, related
procedures need to be adopted to assign responsibilities and address significant Commission-
wide issues, such as the use of alternate systems for electronic distribution.

This type of policy guidance would be similar to that in USITC Directive 7102.1, Guidelines for
Using the USITC Local Area Network for Electronic Mail and Bulletin Board Purposes, for
which GIS is the office of primary interest. Preferably, this directive would be revised to include
the Internet policy rather than developing a separate directive.

The Office of Industries developed the "Section 332 Procedures Manual" which contains the
current policies and practices for all aspects of researching, writing and issuing section 332


                                                4
reports. The manual covers all stages of an investigation from institution to final report issuance.
The manual is updated by the Office of Industries as procedural changes necessitate, but this has
not yet been done to reflect the impact of the ITC Web site. Specifically, the instructions for
public notice and report distribution do not include policies and procedures for use of the
Internet. (See Attachment 2 for details). Addressing use of the ITC Web site could prevent
inconsistencies and errors in report distribution and public notice.

We suggest that:

               the Director of Information Services coordinate with the lAB to develop official
               policy on use of the Internet; and

               the Director of Industries revise the" Section 332 Procedures Manual" to reflect
               the impact and effect of the Web site on preparing, writing and distributing
               reports.


Meeting the Goals of the Strategic Plan

The ITC Web site has the potential to be a valuable management tool in analyzing user data. At a
minimum, the Commission should be able to evaluate changes in user rates, frequency and length
of use, number and types of accessed and downloaded files, and new users versus repeat users.
While the automated logs are still maintained by the Internet server, the absence of software for
automated analysis since June 1996 has severely limited the use of the data for analysis.

In 1995, the Commission issued it's first Strategic Plan, "Share the Vision" with a significant
emphasis on the importance of customer responsiveness in determining the future direction of
Commission operations. The plan specifically addresses the need for improved responsiveness to
customer needs, providing current information, timely responses, and developing a positive trend
in requests for assistance. The performance measurement goals identified to achieve these
critical success indicators include customer surveys and contacts, and a positive trend in the
number and variety of requests for information.

At the start of the pilot program, the Internet server was equipped with software that facilitated
data analysis of site usage. The August 1995 report from the Chairman of the Electronic Reports
Distribution Committee provided statistics on the number of users per week, new users per week,
accesses by ten minute period, users from foreign countries, major users including universities,
companies, governments, and non-profit organizations. The report further stated that the Internet
server would be used to provide customer feedback needed for Action Plans developed in
support of the Commission's Strategic Plan.

Since approximately June 1996, when changes were made to the operating system, the software
package became inoperable. As a result, the Internet server maintains logs of user data but has


                                                  5
very limited automated analytical capability (data can be sorted by date). Data analysis must be
done manually and is extremely time consuming. For example, Publication No. 2975 was
accessed 260 times during the period June to December, 1996. That figure was obtained by
sorting each daily·log for six months, extracting the data on this publication, and manually
counting the line items.

GIS purchased the "Netscape Enterprise" package in September 1996 for $4,194 in order to
enhance performance and increase capabilities of the Web site. "Netscape Enterprise" has the
capability of performing analytical functions on user data. However, this package is currently not
used because of configuration problems.

We suggest that the Director of Information Services, in consultation with the lAB:

               determine the type of user data that should be collected and analyzed; and

               determine the most efficient and effective technical tool/method for gathering and
               analyzing such data, within reasonable cost constraints, and install that tool in a
               timely manner.

The above constitutes an inspection made in accordance with the President's Council on Integrity
and Efficiency's Standards for Inspections.

If you have any questions, or wish to discuss this report, please call me or Judith Borek on 205-
2210.


cc: Commission




                                                6
                                                                      Attachment 1

                                 Survey of 332 Report Recipients

 Staff in the Office of Industries and OIS stated they had received many positive comments
 regarding the quality, timeliness and usefulness of the ITC Web site, but had not actually
 conducted a survey. We conducted a telephone survey to gather information from Commission
 customers regarding their experiences with the site.

 For each of the six section 332 reports reviewed, we obtained a list of individuals who had
 requested a copy of the report from the Office of the Secretary. We selected 25 individuals from
 law firms, research firms, government institutions, universities, and foreign firms who had
 requested one or more of the reports between October and December 1996.

 Nineteen of the individuals had used the ITC Web site, and a significant majority of them found
 the site to be useful and timely. All were satisfied with the design and content of the site and
 found it to be useful in keeping up to date on Commission notices, publications and activities,
 and looking for archived items. Virtually none of the users or nonusers of the site would
 substitute electronic files for traditional hard copies. A summary of the comments follows:

        twelve were regular users of the ITC Web site, and found it to be a helpful source of
        information;

        seven were familiar with the ITC W e~ site, but used it on an infrequent basis, and did not
        use it to download files;

        six recipients were unaware of the fact that the Commission maintained a Web site;

        three of the recipients did not have access to the Internet; and

        two representative of foreign firms stated that their offices in Germany and Italy did not
        have Internet access and, therefore, it was necessary to obtain hard copies.

  We anticipated that requestors of reports could be biased in favor of hard copies and-planned to
- counter this by contacting ITC Web site users identified from the logs maintained by the Internet
  server. However, we found that the process to identify users was difficult and unlikely to result
  in useful information with the Commission's current capability. The Internet server is only
  capable of identifying whether the user is an educational, commercial or governmental
  organization. Many users are anonymous, including anyone who accesses the site through a
  commercial provider. The name of the organization can only rarely be identified, and that is not
  enough specificity to identify an individual. We selected eight addresses, all of which were
  anonymous.




                                                  7
                                                                     Attachment 2

                                Section 332 Procedures Manual

Specifically, the following chapters lack guidance as to when, how, or whether to use the ITC
Web site for posting information on section 332 investigations:

       Chapters I, II, and III cover preparation of Action Jackets. While these chapters state that
       information should be published in the Federal Re~ister giving public notice of the
       institution of investigations, public hearings, news releases, and final report
       distribution, it does not address the use of the ITC Web site as a means of accomplishing
       these tasks.

       Chapter VI states that notification of questionnaires should be published in the Federal
       Re~ister. The availability of using the ITC Web site for this purpose is not addressed.


       Chapter XII covers distribution of hard copies of reports to requesting agencies and the
       release of public reports. The option of using the Internet for release of reports, prior to
       the availability of printed copies, is not addressed.

       Chapter XIII covers instructions for preparation of cover related material, but does not
       contain instructions to include a reference to the ITC Web site in the reports. While four
       of the six most recent 332 reports did contain this reference on the last page of the report,
       two of the reports (publications 3000 and 30007) did not contain a reference to the Web
       site. To ensure consistency, Chapter XIII would be an appropriate place to include such
       instructions.

The Section 332 Procedures Manual is available in read-only format in the Office of
Economic's shared area of the LAN (S:\332MAN\332MANUL.WP6).




                                                 8
